                        U.S. Department of Agriculture

                           Office of Inspector General
                            Financial & IT Operations




              Audit Report

 Agreed-Upon Procedures: Retirement, Health
          Benefits, and Life Insurance
Withholdings/Contributions and Supplemental
Semiannual Headcount Report Submitted to the
    Office of Personnel Management (OPM)




                              Report No. 11401-27-FM
                                     September 2007
                       UNITED STATES DEPARTMENT OF AGRICULTURE
                                  OFFICE OF INSPECTOR GENERAL

                                       Washington D.C. 20250
September 21, 2007


The Honorable Patrick E. McFarland
Inspector General
U.S. Office of Personnel Management
Theodore Roosevelt Federal Building
1900 E Street NW., Room 6400
Washington, D.C. 20415-0001

Subject:      Agreed-Upon Procedures: Retirement, Health Benefits, and Life Insurance
              Withholdings/Contributions and Supplemental Semiannual Headcount Report
              Submitted to the U.S. Office of Personnel Management (OPM)

Dear Mr. McFarland:

This report presents the results of the Agreed-Upon Procedures performed on the subject
information processed by the U.S. Department of Agriculture’s (USDA) Office of the Chief
Financial Officer/National Finance Center for fiscal year 2007 through August 31, 2007.

Our review included information for the following agencies listed in Appendix A of the Office of
Management and Budget (OMB) Bulletin No. 06-03, Audit Requirements for Federal Financial
Statements, dated August 23, 2006: USDA, Department of Commerce, Department of Justice,
Department of the Treasury, Department of Homeland Security, Department of Housing and
Urban Development, Agency for International Development, Department of Labor, and Small
Business Administration.

This review was performed as required by OMB and in accordance with the Statements of
Standards for Attestation Engagements established by the American Institute of Certified Public
Accountants.

If you have any questions, please contact me at (202) 720-6945, or have a member of your staff
contact Steve Rickrode, Director, Administration and Finance Division, at (202) 720-1918.

Sincerely,


/s/

ROBERT W. YOUNG
Assistant Inspector General
 for Audit

cc:
Mark A. Reger, Chief Financial Officer, OPM
Executive Summary
Agreed-Upon Procedures:     Retirement, Health Benefits, and Life Insurance
Withholdings/Contributions and Supplemental Semiannual Headcount Report
Submitted to the Office of Personnel Management (OPM) (Audit Report No.
11401-27-FM)

Results in Brief               This report presents the results of the Agreed-Upon Procedures (AUP)
                               performed on the retirement, health benefits, and life insurance
                               withholdings/contributions and supplemental semiannual headcount reports
                               submitted to the U.S. Office of Personnel Management (OPM) by the U.S.
                               Department of Agriculture’s (USDA) Office of the Chief Financial
                               Officer/National Finance Center (OCFO/NFC) for fiscal year 2007 as of
                               August 31, 2007. 1

                               Our objective was to perform the AUPs detailed in the Office of Management
                               and Budget (OMB) Bulletin No. 06-03, Audit Requirements for Federal
                               Financial Statements, dated August 23, 2006, in order to assist OPM in
                               assessing the reasonableness of retirement, health, and life insurance
                               withholdings/contributions and employee data submitted by OCFO/NFC for the
                               following agencies listed in OMB Bulletin No. 06-03, Appendix A: USDA,
                               Department of Commerce, Department of Justice, Department of the Treasury,
                               Department of Homeland Security, Department of Housing and Urban
                               Development, Agency for International Development, Department of Labor,
                               and Small Business Administration.

                               There were no differences that exceeded the allowable thresholds noted during
                               our review; however, we identified seven errors for benefits entered into the
                               system by the various Departments’ personnel officers. We were also unable to
                               verify 46 personnel documents tested in steps 2, 3, and 4 because the
                               Departments were unable to locate the documents requested. However, we
                               performed the calculations for salary, retirement, life, and health insurance in
                               these cases to ensure that the OCFO/NFC systems were accurate. We noted no
                               exceptions. Details are provided in exhibit A.




1
  We selected our samples from pay period 22 (October 29 – November 11, 2006), pay period 03 (February 4 – February 17, 2007) and pay period 04
(February 18 – March 3, 2007) of fiscal year 2007 and the OPM 1523, Supplemental Semiannual Headcount Report, as of March 3, 2007.

USDA/OIG-A/11401-27-FM                                                                                                              Page i
Abbreviations Used in This Report



AUP               Agreed-Upon Procedures
CFO               Chief Financial Officer
FEGLI             Federal Employees’ Group Life Insurance
IG                Inspector General
NFC               National Finance Center
OCFO              Office of the Chief Financial Officer
OMB               Office of Management and Budget
OPF               Official Personnel Files
OPM               Office of Personnel Management
PP                pay period
RITS              Retirement and Insurance Transfer System
SF                standard form
USDA              U.S. Department of Agriculture




USDA/OIG-A/11401-27-FM                                       Page ii
Table of Contents

Executive Summary ................................................................................................................................ i

Abbreviations Used in This Report ...................................................................................................... ii

Report of the Office of Inspector General ........................................................................................... 1

Exhibit A – Procedures Performed and Results ................................................................................. 3




USDA/OIG-A/11401-27-FM                                                                                                                 Page iii
                       UNITED STATES DEPARTMENT OF AGRICULTURE
                                   OFFICE OF INSPECTOR GENERAL

                                        Washington D.C. 20250




Report of the Office of Inspector General

TO:    Honorable Patrick E. McFarland
       Inspector General
       U.S. Office of Personnel Management

We have performed the procedures described in exhibit A, which were agreed to by the Inspector
General (IG) and Chief Financial Officer (CFO) of the U.S. Office of Personnel Management
(OPM), solely to assist with respect to the employee withholdings and employer contributions
reported by the U.S. Department of Agriculture’s (USDA) Office of the Chief Financial
Officer/National Finance Center (OCFO/NFC) on the standard form 2812, Report of
Withholdings and Contributions for Health Benefits, Life Insurance, and Retirement, for the pay
periods (PP) ending November 11, 2006 (PP 22), February 17, 2007 (PP 3), and March 3, 2007
(PP 4), of fiscal year 2007, respectively, and OPM 1523, Supplemental Semiannual Headcount
Report, as of March 3, 2007. The reports submitted by OCFO/NFC included information for the
following entities listed in Appendix A of the Office of Management and Budget (OMB)
Bulletin No. 06-03, Audit Requirements for Federal Financial Statements, dated August 23,
2006: USDA, Department of Commerce, Department of Justice, Department of the Treasury,
Department of Homeland Security, Department of Housing and Urban Development, Agency for
International Development, Department of Labor, and Small Business Administration.

The engagement to apply the Agreed-Upon Procedures was performed in accordance with the
standards established by the American Institute of Certified Public Accountants. The sufficiency
of the procedures is solely the responsibility of the IG and the CFO of OPM. Consequently, we
make no representations regarding the sufficiency of the procedures described either for the
purpose for which this report has been requested or for any other purpose. The results of the
engagement are detailed in exhibit A.

We were not engaged to, and did not, perform an audit, the objective of which would be the
expression of an opinion on the withholdings and contributions for health benefits, life insurance,
and retirement, and the headcount reports prepared by OCFO/NFC. Accordingly,
we do not express such an opinion. Had we performed additional procedures, other matters
might have come to our attention that would have been reported to you.




USDA/OIG-A/11401-27-FM                                                                          Page 1
This report is intended solely for the use of the IG and CFO of OPM and should not be used by
those who have not agreed to the procedures and taken responsibility for the sufficiency of the
procedures for their purposes.


/s/

ROBERT W. YOUNG
Assistant Inspector General
 for Audit

August 31, 2007

cc:
Mark A. Reger, Chief Financial Officer, OPM




USDA/OIG-A/11401-27-FM                                                                      Page 2
Exhibit A – Procedures Performed and Results
1.   Compared the Retirement and Insurance Transfer System (RITS) submission data with payroll
     information by performing the following procedures.

     a. Recalculated the mathematical accuracy of the payroll information. For cross-servicing
        agencies, if the internal controls were the same for all agencies serviced, it was only
        necessary to perform this procedure for one agency.

     b. Recalculated the mathematical accuracy of each RITS submission for the payroll information
        selected in step 1.a.

     c. Compared the employee withholding information shown on the payroll information obtained
        in step 1.a. for retirement, health benefits, and life insurance (as adjusted for reconciling
        items) to the related amounts shown on the RITS submission for the corresponding period.

     Report any differences for retirement, health benefits, and life insurance that are over
     1 percent of the total reported for each of the three categories. Report and obtain management’s
     explanation for those differences above the 1 percent threshold.

     Results

     There were no differences over 1 percent.

2.   a. Randomly selected a total of 25 individuals who were on the payroll system for all three of
        the RITS submissions selected and met all the following criteria.

        •      Covered by the Civil Service Retirement System or the Federal Employees’ Retirement
               System;
        •      enrolled in the Federal Employees’ Health Benefits Program;
        •      covered by Basic Life Insurance; and
        •      covered by at least one Federal Employees’ Group Life Insurance (FEGLI) optional
               coverage (Option A, B, or C).

     b. Obtained the following documents, either in electronic or hard copy format, from the Official
        Personnel File (OPF) for each individual selected in step 2.a. Hard copies could be originals
        or certified copies.

        •      All Notifications of Personnel Actions (standard form (SF) 50) covering the pay periods
               in the RITS submission chosen.

        •      The Health Benefits Election Form (SF-2809) covering the pay periods in the RITS
               submission chosen or, if applicable, requested that the agency personnel office obtain a
               report from the agency’s automated system that allows participants to


USDA/OIG-A/11401-27-FM                                                                         Page 3
Exhibit A – Procedures Performed and Results
           change benefits (e.g., Employee Express) for any health benefits transaction in that
           system for the individuals selected in step 2.a. Compared date of transaction with date
           on the certified copy of the SF-2809 or the agency’s automated system report requested.
           Confirmed that the health benefits information to be used in step 2.f. covers the pay
           periods in the RITS submissions chosen (note: a new SF-2809 was needed only if an
           employee was changing health benefit plans; therefore, the form could be many years
           old).

       •   The Life Insurance Election Form (SF-2817) covering the pay periods in the RITS
           submission chosen (note: a new SF-2817 was needed only if an employee was changing
           coverage; therefore, the form could be many years old).

       Results

       The following 43 documents were not located by the personnel officers; however, we
       performed the calculations for salary, retirement, life, and health insurance in these cases to
       ensure that the Office of the Chief Financial Officer/National Finance Center systems were
       calculating accurately.

        DEPARTMENT                                               SF-50        FEHB         FEGLI
        Agriculture                                                             1            1
        Agency for International Development                                    1             2
        Justice                                                                 1            1
        Homeland Security                                                       2            2
        Housing and Urban Development                                                        2
        Small Business Administration                              16            8            3
        Commerce                                                                 1           1
        Labor                                                                                1
        TOTAL                                                      16           14           13

    c. Compared the base salary used for payroll purposes and upon which withholdings and
       contributions generally are based with the base salary reflected on the employee’s
       SF-50. Report any differences and obtain management’s explanation of the differences.

       Results

       No exceptions noted.

    d. For retirement, compared the plan code on the employee’s SF-50 to the plan code used in the
       payroll system. Report any differences and obtain management’s explanation of the
       differences.




USDA/OIG-A/11401-27-FM                                                                        Page 4
Exhibit A – Procedures Performed and Results
       Results

       No exceptions noted.

    e. Calculated the retirement amount to be withheld and contributed for the plan code from the
       employee’s SF-50, based upon the official withholding and contribution rates required by
       law. Compared to actual amounts withheld and contributed. Report any differences and
       obtain management’s explanation of the differences.

       Results

       No exceptions noted.

    f. For health benefits, compared the employee withholdings and agency contributions with the
       official subscription rates issued by the Office of Personnel Management for the plan and
       option elected by the employees, as documented by a SF-2809 in the employee’s OPF or
       automated system that allows the participant to change benefits. Report any differences and
       obtain management’s explanation of the differences.

       Results

       No exceptions noted.

    g. For life insurance, confirmed that Basic Life Insurance was elected by the employees, as
       documented by SF-2817, in his/her OPF. Report any differences and obtain management’s
       explanation of the differences.

       Results

       No exceptions noted.

  h.   Calculated the withholding and contribution amounts for Basic Life Insurance using the
       following.

       •   For employee withholdings: Rounded the employee’s annual base salary up to the
           nearest thousand dollars and add $2,000. Divided this total by 1,000 and multiplied the
           rate required by law. The life insurance rates were found in the FEGLI Program Booklet
           on OPM’s website.

       •   For agency contributions: Divided the employee withholdings calculated above by two.

       •   Compared to actual amounts withheld and contributed. Report any differences and
           obtain management’s explanation of the differences.



USDA/OIG-A/11401-27-FM                                                                    Page 5
Exhibit A – Procedures Performed and Results
       Results

       No exceptions noted.

  i.   Also, for life insurance, compared optional coverage elected as documented by an
       SF-2817 in the employee’s OPF with optional coverage documented in the payroll system.
       Report any differences and obtain management’s explanation of the differences.

       Results

       We found seven sample items that did not match the FEGLI code in the payroll system, three
       in Department of Housing and Urban Development, one each in Agency for International
       Development, Small Business Administration, Department of Justice, and Department of the
       Treasury. Management at the Agency for International Development, Small Business
       Administration, and Department of the Treasury stated that these were input errors.
       Management for Department of Housing and Urban Development and Department of Justice
       did not respond.

  j.   Calculated the withholding amounts for optional life insurance using the following.

       •   For Option A: Determined the employee’s age group using the age groups provided for
           Option A in the FEGLI Program Booklet. The withholding amount was the rate listed in
           the FEGLI Program Booklet for that age group. Compared to amount withheld. Report
           any differences and obtain management’s explanation of the differences.

       Results

       No exceptions noted.

       •   For Option B: Inspected the SF-2817 to determine the number of multiples chosen for
           Option B. Determined the employee’s age group using the age groups provided for
           Option B in the FEGLI Program Booklet. Rounded the employee’s annual rate of basic
           pay up to the next 1,000, divided by 1,000, and multiplied by the rate for the age group.
           Multiplied this amount by the number of multiples chosen. Compared to amount
           withheld. Report any differences and obtain management’s explanation of the
           differences.

       Results

       No exceptions noted.

       •   For Option C: Inspected the SF-2817 to determine the number of multiples chosen for
           Option C. Determined the employee’s age group using the age groups provided for
           Option C in the FEGLI Program Booklet. Multiplied the rate for the age group by the

USDA/OIG-A/11401-27-FM                                                                       Page 6
Exhibit A – Procedures Performed and Results
            number of multiples chosen. Compared to amount withheld. Report any differences and
            obtain management’s explanation of the differences.

        Results

        No exceptions noted.

3. Randomly selected a total of 10 employees who had no health benefits withholdings from the
   payroll information corresponding to the three RITS submissions selected for testing above.

   Requested SF-2809s covering the pay periods in the RITS submissions chosen, either in electronic
   or hard copy format, from the selected employees’ OPFs or, if applicable, requested that the
   agency personnel office obtain a report from the agency’s automated system that allowed
   participants to change benefits for any health benefit transactions in that system for the individuals
   selected. Hard copies could be originals or certified copies. Inspected the documentation to
   determine that health benefits coverage was not elected. This could be determined in the following
   ways:

   •   Absence of an SF-2809 in the OPF and no election of coverage made through the agency’s
       automated system that allows participants to change benefits;

   •   an SF-2809 in the OPF with section E checked (indicating cancellation of coverage) and no
       later election of coverage through the agency’s automated system that allows participants to
       change benefits; or

   •   cancellation of coverage through the agency’s automated system that allows participants to
       change benefits and no later election of coverage with an SF-2809.

   Report any exceptions.

        Results

        No exceptions noted.

4. Randomly selected a total of 10 employees who had no life insurance withholdings from the
   payroll information corresponding to the three RITS submissions selected for testing above.
   Requested the SF-2817s covering the pay periods in the RITS submission chosen, either in
   electronic or hard copy format, from the selected employees’ OPFs. Hard copies could be
   originals or certified copies. Inspected the SF-2817 to determine that the employee waived or
   canceled Basic Life Insurance coverage. Report any exceptions.




USDA/OIG-A/11401-27-FM                                                                          Page 7
Exhibit A – Procedures Performed and Results
         Results

         Three of the forms were not located by the personnel officers (two at the Small
         Business Administration and one at the Department of the Treasury). No other
         exceptions were noted.

5. Calculated the headcount reflected on the Supplemental Semiannual Headcount Report selected for
   testing above, as follows.

   a.    Obtained existing payroll information supporting the selected Supplemental Semiannual
         Headcount Report. If existing payroll data was not available, had a payroll system query
         performed that summarized detailed payroll data supporting the Supplemental Semiannual
         Headcount Report, as follows.

         •   Benefit category
         •   Dollar amount of withholdings and contributions
         •   Number enrolled (deductions made/no deductions)
         •   Central Personnel Data File Code
         •   Aggregate base salary.

   b.    Recalculated the headcount reflected on the Supplemental Semiannual Headcount Report. If
         an electronic file was not available, a suggested method of recalculating the headcount was
         as follows: (1) estimated the number of employees per payroll register page by counting the
         employees listed on several pages, (2) counted the number of pages in the payroll register,
         and (3) multiplied the number of employees per page by the number of pages, or count (using
         a computer audit routine) the number of employees on the payroll data file for the period.

   c.    Compared the results of payroll information from step 5.a. with the calculated headcount
         from step 5.b. to the information shown on the Supplemental Semiannual Headcount Report.

   d.    Report any differences and obtain management’s explanation of the differences (i.e., gross
         rather than net) greater than 2 percent between the headcount reporting on the agency’s
         headcount report and the payroll information from step 5.a. and the calculated headcount
         from step 5.b.

         Results

         There were no differences greater than 2 percent.

6. Calculated employer and employee contributions for retirement, health benefits, and life insurance.

   a.    Calculated retirement withholdings and contributions for the three pay periods selected, as
         follows.


USDA/OIG-A/11401-27-FM                                                                        Page 8
Exhibit A – Procedures Performed and Results
        i. Multiplied the CSRS and FERS payroll base by the withholding and employer
           contribution rates required by law.

       ii. Compared the calculated totals with related amounts shown on the RITS submissions.
           Report any variances and obtain management’s explanation of the variances (i.e., gross
           rather than net) between the calculated amounts and the amounts reported on the RITS
           submissions greater than 5 percent of the amounts on the RITS submission.

       Results

       There were no differences greater than 5 percent.

  b.   Calculated employee withholdings and employer contributions for health benefits for the
       three pay periods selected, as follows.

        i. Multiplied the number of employees enrolled in each health benefits plan and plan option
           by the employee withholdings and employer contributions for the plan and option.

       ii. Summed the totals in step 6.b.i. and compared the result with the health benefit
           withholding and contribution amounts shown on the RITS submissions. Report any
           variances and obtain management’s explanation of the variances (i.e., gross rather than
           net) between the calculated amounts and the amounts reported on the RITS submissions
           greater than 5 percent of the amounts on the RITS submission.

       Results

       There were no differences greater than 5 percent.

  c.   Calculated the Basic Life Insurance employee withholdings and employer contributions for
       the three pay periods selected, as follows.

        i. Had agency payroll office personnel perform a payroll system query to determine the
           total number of employees with Basic Life Insurance coverage and the aggregate annual
           basic pay for all employees with Basic Life Insurance.

       ii. For employee withholdings: Added the product of 2,000 times the number of employees
           with Basic Life Insurance coverage to the aggregate annual basic pay for all employees
           selected. This represented the estimated total Basic Life Insurance coverage.

       Divided this total by 1,000 and multiplied by the rate required by law. The Life Insurance
       rates could be found in the FEGLI Program Booklet on OPM’s website.

       iii. Compared the result in step 6c.ii. to the withholdings for Basic Life Insurance coverage
            reported on the RITS submission. Report any difference and obtain management’s


USDA/OIG-A/11401-27-FM                                                                      Page 9
Exhibit A – Procedures Performed and Results
           explanation of the difference (i.e., gross rather than net) between the estimate and the
           amount of withholdings reported on the RITS submission greater than 5 percent of the
           amounts on the RITS submission.

       Results

       There were no differences greater than 5 percent.

       iv. For agency contributions: Divided the results of step 6.c.ii. by two – this approximates
           agency contributions, which are one-half of employee withholdings. Compared this
           result to the amount reported on the RITS submission and report any differences and
           obtain management’s explanation of the differences (i.e., gross rather than net) between
           the estimate and the amount reported on the RITS submission greater than 5 percent of
           the amounts on the RITS submission.

       Results

       There were no differences greater than 5 percent.

  d.   Calculated the Option A, Option B, and Option C Life Insurance coverage withholdings for
       the three pay periods selected by using detail payroll reports used to reconcile the RITS
       reports in step 1. In addition to the information used for step 1, the reports should have
       included the employee’s date of birth, annual rate of basic pay, and number of multiples
       selected for Option B and C. Note: While similar to step 2.j., the calculation here was for
       the entire amount reported on the RITS submissions for the three pay periods selected, as
       opposed to the sample of 25 employees in step 2.j.

        i. Multiplied the number of employees in each age group by the appropriate rate for Option
           A in accordance with the rates for age groups provided in the FEGLI Program Booklet.
           Report any differences (i.e., gross rather than net) greater than 2 percent of the amounts
           on the RITS submission.

       Results

       There were no differences greater than 2 percent.

       ii. Divided the reports for Option B and Option C insurance into the age groups shown in
           the FEGLI Program Booklet. For Option B, rounded the employee’s annual rate of basic
           pay up to the next 1,000, divided by 1,000, multiplied by the rate for the age group,
           multiplied this by the number of multiples.

           (Annual rate of basic pay (rounded up)/1,000*rate*multiples).




USDA/OIG-A/11401-27-FM                                                                     Page 10
Exhibit A – Procedures Performed and Results
          For Option C, multiplied the rate for the age group by the number of multiples chosen for
          each employee. Reported any differences and obtain management’s explanation of the
          differences (i.e., gross rather than net) greater than 2 percent of the amounts on the RITS
          submission for Option B and/or Option C.

       Results

       There were no differences greater than 2 percent.




USDA/OIG-A/11401-27-FM                                                                     Page 11
